U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                      U.S. Census Bureau

               FDCA Program for 2010 Census
      Is Progressing, but Key Management and
    Acquisition Activities Need to be Completed

     Final Inspection Report No. OSE-17368/August 2005




                            PUBLIC
                            RELEASE



            Office of Systems Evaluation
                                          /!j   '"
                                                ~ "'
                                                ~~~T OF 



                                                                UNITED STATES DEPARTMENT OF COMMERCE
                                                                The Inspector General
                                                () .J.
                                                .r~"'TES 0" "
                                                                Washington. D. C.   20230
            AUG .:. 4 2005




MEMORANDUM FOR	                Charles Louis Kincannon
                               Director , Bureau of the Census


FROM:

SUBJECT:



This report presents the results of our survey of the Census Bureau s progress in planning and
managing the Field Data Collection Automation (FDCA) program for the 2008 dress rehearsal
and 2010 decennial census. FDCA is an $800 million effort to automate field data collection and
provide services such as logistics , training, and help desk support for 12 regional centers , more
than 450 local census offices , and up to 500 000 field staff. The key technology component of
this effort is a mobile computing device equipped with Global Positioning System capabilities
which field staff are to use to accurately locate housing units , update address lists and maps , and
collect questionnaire data. By replacing many paper-based field data collection processes with
automation , Census expects to reduce overall 2010 census costs by as much as $900 million
compared to the cost of repeating the paper-based processes used in 2000 , and improve data:
quality and operational efficiency.

Despite the magnitude and complexity of the effort , Census had originally intended to develop
FDCA internally with contractor support. However, in early 2004 , the bureau determined that it
did not have the management or technical resources to develop field data collection systems for
the dress rehearsal and 2010 census while simultaneously supporting its 2004 and 2006    site
                                                                                      1 for thetests.
Consequently, the bureau decided to acquire the services of an integration contractor
entire effort.

When we began our fieldwork in fall 2004 , activities to plan the acquisition were being
                                                                               2 and project plan
performed , but progress was slow. FDCA lacked a project management office
and by the end of2004 , key internal acquisition milestones had been missed. In January 2005
the FDCA program underwent a major reorganization. The bureau established a FDCA project
management office , appointed a new project manager , developed an acquisition strategy that
addresses the shortened schedule , and appears to be on track in implementing the acquisition
strategy.
U.S. Department of Commerce                                                     Final Inspection Report OSE-17368
Office of Inspector General                                                                           August 2005

However, the late decision to use an integration contractor and the initial slow pace in planning
the acquisition have shortened the amount of time available for awarding the contract and
developing FDCA. Consequently, the risk of not having sys tems and services ready by
April 2007 for address canvassing, the first major field operation in the dress rehearsal, has
increased. Census needs to develop a sound project management plan, formulate and report
objective measures of progress for bureau and Department oversight, and develop procedures
and training for the technical interchanges that will take place between Census and offerors
during source selection. 3

Discussion of Census Bureau’s Response to the Draft Report

In its written response to our draft report of June 6, 2005, the Census Bureau indicates that it has
no major disagreements with our findings and recommendations, and states that the bureau has
taken actions to correct the deficiencies noted in the report. The response further states that
additional project documentation is being developed, including a project management plan, and
notes that the bureau has met all of its acquisition milestones since January 2005.

However, the bureau does not agree with our statements that key internal acquisition milestones
had been missed by the end of 2004 and that the acquisition will take longer because of the
technical exchange associated with the address canvassing prototype (see page 8). We based our
statements on the milestones in the “FDCA Acquisition Roadmap,” a briefing the bureau
presented to us on October 29, 2004. At that time, the bureau had planned to complete a revised
cost estimate in November 2004 and to have completed the acquisition strategy, source selection
plan, functional requirements, and selection of alternatives in December 2004. Although the
bureau described its revised acquisition strategy to us in a meeting held on January 19, 2005,
none of these items that were to have been completed the previous November and December
were available. Also, according to the roadmap, the contract was to be awarded in December
2005 using an acquisition strategy that did not include the prototype and technical exchange
with offerors prior to contract award. The planned award date under the revised strategy with the
prototype and technical exchange is April 2006.

The bureau’s response to the draft report is included in its entirety as an attachment. Please
provide an action plan within 60 calendar days identifying the actions taken or planned for each
recommendation. If you have any questions about this report, please contact me on
(202) 482-4661 or Judith Gordon, Assistant Inspector General for Systems Evaluation, on
(202) 482-5643. We appreciate the cooperation and courtesies your staff extended to us during
our survey.




3
    Source selection is the process of selecting the offeror’s proposal that represents the best value.


                                                              2

U.S. Department of Commerce                                  Final Inspection Report OSE-17368
Office of Inspector General                                                        August 2005

OBJECTIVES, SCOPE, AND METHODOLOGY

In the fall of 2004, we began an inspection survey of the bureau’s progress in planning and
managing FDCA and acquiring an integration contractor. Because of FDCA’s importance to the
decennial and the major reorganization of the program that occurred as we were concluding our
fieldwork, we decided to report on the risks we identified during our survey and recommend
mitigating measures instead of starting a formal inspection. Census agreed with this approach.

We interviewed senior Census Bureau management, including the associate director for
decennial census, the assistant director for decennial information technology and geographic
systems, the assistant director of the american community survey and decennial census, and
FDCA program and contracting principals, as well as officials overseeing the 2010 census in the
Department’s Office of the Chief Information Officer. We reviewed program documentation
including capital asset plans and business cases (OMB Exhibit 300s) and schedules, as well as
documents in the FDCA acquisition library concerning the program scope, 2004 site test, and
2010 planning. We also used federal guidance and best practices in contracting and program
management from sources such as the Federal Acquisition Regulation and Project Management
Institute Body of Knowledge.

We conducted our fieldwork from October 2004 through April 2005. We limited our review to
FDCA’s management and acquisition approach. We performed our work in accordance with the
Inspector General Act of 1978, as amended, and the Quality Standards for Inspections, March
1993, issued by the President’s Council on Integrity and Efficiency.




                                               3

U.S. Department of Commerce                                     Final Inspection Report OSE-17368

Office of Inspector General                                                           August 2005





FINDINGS AND RECOMMENDATIONS

I.	   The Bureau’s Late Decision to Use an Integration Contractor and Slow Start in
      Implementing Project Management Have Increased Risk

When the bureau formulated its decennial reengineering plan in 2001, it identified significant
savings associated with the development of systems that would automate field data collection
activities. At that time, officials in the field and decennial directorates intended for bureau
employees to develop those systems. Capital asset planning for the decennial reflected this
approach, and the costs, benefits, and risks of alternative acquisition strategies were not
evaluated. The decision to use an integration contractor for FDCA was made in early 2004 when
efforts to develop and implement field data collection systems for the 2004 and 2006 tests
revealed the lack of adequate internal resources. The capital asset plan for fiscal year 2006
documents the need for a program increase to fund contract management for FDCA due to this
change in approach. For future complex IT projects, Census should consider contracting for the
entire effort as part of its early capital asset planning process.

After the need for an integration contractor was recognized, a scope document describing the
major elements of FDCA was prepared, market research was begun, and an “acquisition
roadmap”—a high- level outline of the acquisition schedule and milestones—was developed.
According to the acquisition roadmap, several important documents, including the acquisition
strategy, source selection plan, and functional requirements were to be completed by the end of
2004. These milestones were missed. In addition, at the end of 2004, almost a year since the
decision to contract for FDCA had been made, a project office still had not been established and
a project plan had not been developed. We attribute this slow progress primarily to the fact that
the field directorate, which was in charge of FDCA at that time, did not have experience
managing large information technology (IT) acquisitions, and many of its technical personnel
were occupied with completing the 2004 site test and preparing for the 2006 site test.

One important impact of these delays is the missed opportunity for the FDCA contractor to
observe and perhaps test part of its solution in the 2006 site test. Decennial census officials point
out that it takes industry a long time to understand Census requirements. Thus, the opportunity to
observe the 2006 test could have provided the contractor with a level of understanding of how a
decennial is planned and conducted that would be difficult to obtain in any other fashion. By the
time the contract is awarded in April 2006, however, most of the planning and preparation for the
2006 test, as well as the address canvassing operation will have been completed. While the 2006
test is expected to give bureau staff a better understanding of FDCA requirements, we believe
that the resources expended on conducting the test would have been of greater benefit to the
decennial if the FDCA contractor had an opportunity to be involved.




                                                 4

U.S. Department of Commerce                                                                                Final Inspection Report OSE-17368

Office of Inspector General                                                                                                      August 2005


Recommendations

The Census Bureau Director should direct appropriate management officials to take the
following actions:

1.	 For future complex IT projects, consider contracting for the entire effort early in the capital
    asset planning process.

2.	 Assign responsibility for planning and managing complex IT projects to Census
    organizations with appropriate experience.

II.      Project Office Established, But Project Management Planning Needs to Be Completed

In January 2005, the deputy director of the Census moved FDCA mana gement responsibilities
from the field operations directorate to the decennial census directorate. A new project manager
was appointed, and a project management office was created. The new project office reports
                                                                                                                                         directly to the assistant
  Figure 1. Census Bureau Organization                                                                                                   director for decennial IT
                                                              DIRECTOR                                                                   and geographic systems.
                                                         DEPUTY DIRECTOR                                                                 The organization of the
                                                                                                                                         FDCA office is similar to
                 Associate Director for         Associate Director for          Associate Director for          Associate
                                                                                                                Associa te Director      the project management
                   Communications                Economic Programs             Demographic Programs              for Methodology

    Associate
   Associate   Director
             Director forfor    Associate Director for           Associate Director         Associate Director for
                                                                                                                     & Standards         offices Census has used for
       Administration
    Administration
    ChiefFinancial
   Chief
                    andand
          FinancialOfficer
                    Officer
                                   Field Opera
                                         Operations
                                               tions              for IT and Chief
                                                                Information Officer
                                                                                              Decennial Census                           other large IT
                                                                                                                                         acquisitions. 4 It consists of
       Acquisition                                                                                  FDCA
                                                                                                                                         a project manager, a
        Division
                                                                                                     PMO                                 deputy project manager,
                                                                                                                                         and a number of line
                                                                                                                                         managers. (See the
                                                                                                                                         organization chart in
                                                  Project
                                                 Manager
                                                                                                                                         Figure 1.) The bureau is
                                              Deputy Project
                                                                                                                                         working to fill 14 positions
                                                 Manager
                                                                                                                                         in fiscal year 2005 and at
                                                                                                                                         the time of our fieldwork,
                                      Technical            User
                   Business
                                    Requirements       Acceptance
                                                                            Security
                                                                                                                                         had filled several key
                                                                                                       Offices with major responsibility management positions
                                                                                                       for FDCA acquisition
                                                                                                                                         with personnel
  Source: Various Census documents and interviews                                                                                        experienced in managing
                                                                                                                                         large IT system and
service contracts and knowledgeable about decennial operations. At the project’s peak, the
bureau expects to have about 60 personnel in total consisting of Census employees and support
contractors. Although responsibility for FDCA has been moved, organizations with major
responsibility for the 2010 census are represented—the project manager is from the decennial
census directorate and the deputy is from the field operations directorate.

4
 For example, the Data Capture System for the 2000 census and the Data Response Integration System for the 2010
census.


                                                                                  5

U.S. Department of Commerce                                             Final Inspection Report OSE-17368
Office of Inspector General                                                                   August 2005

Because of the need to award the integration contract as soon as possible to meet decennial
deadlines, the bureau’s focus has been on developing the acquisition strategy and solicitation at
the expense of overall project planning. The bureau formulated an acquisition strategy that
addresses the shortened timeframe (see page 7) and completed key sections of the draft
solicitation, which was posted on its business opportunities website in April for industry
comment. Census should now develop a sound project management plan to ensure that pre- and
post-contract award activities are properly formulated, executed, monitored, and controlled. The
plan should be based on an analysis of all work needed to complete FDCA and detail the cost,
schedule, and performance baselines against which project execution can be compared and
deviations measured. The plan should also identify risks that could jeopardize the solicitation,
source selection, or project execution, along with mitigation strategies, and identify high priority
activities that must be completed on time in order for FDCA to meet its schedule (i.e., activities
on the critical path).

Once the plan is completed, objective progress measures can be formulated and reported.
Reporting progress against these measures is essential to effectively managing FDCA on a day-
to-day basis and for senior Census and Department management to monitor the program.
Although the Department’s Assistant Secretary for Administration and Chief Information Officer
and their staffs have been meeting quarterly with Census officials since November 2003 to
review FDCA and other decennial programs, we have found that without objective measures,
they lack sufficient information for monitoring the FDCA program.

Although the contractor will be required to file earned value 5 reports, the project office should
also plan and objectively report on essential internal activities, such as managing requirements,
testing systems, and ensuring compliance with IT security policies throughout the project life
cycle. Basing Census’s FDCA reporting on objective measures and providing reasons for any
deviations from the baseline plan and their impacts, should help ensure that Census and
Department officials and other interested stakeholders are adequately informed of the status of
FDCA.

Recommendations

The Census Bureau Director should direct appropriate management officials to take the
following actions:

1.	 Formulate a project management plan that describes project execution, monitoring, control,
    and reporting. At a minimum, the plan should include:
       a.	 a detailed schedule, cost, and performance baseline;
       b.	 identification of the critical path; and
       c.	 project risks and mitigation strategies.

2.	 Regularly track program progress made against the cost, schedule, and performance baseline
    defined in the project management plan and determine the reasons for any deviations and
    their impact.

5
  Earned value management is an objective, quantitative technique of measuring program progress by evaluating
reliable program data against the baseline to support decision-making throughout the program’s life cycle.


                                                       6

U.S. Department of Commerce                                                  Final Inspection Report OSE-17368

Office of Inspector General                                                                        August 2005


III.	 Acquisition Strategy Addresses Time Constraint, But Requires Careful Planning and
      Implementation

Census has identified having systems ready in time for dress rehearsal address canvassing in
April 2007 as FDCA’s greatest risk since the integration contractor will have only about a year
after contract award to prepare for the start of   Table 1. High Level FDCA Milestones Through
this operation. 6 (See the high level FDCA         Dress Rehearsal
milestones in Table 1.) The FDCA acquisition                 Date                 Milestone
strategy, outlined in Table 2, was developed to            June 2005          Solicitation issued
mitigate schedule risk by having a limited                April 2006           Contract Award
number of offerors build prototype systems for           January 2007         RCC/LCO Open*
address canvassing as part of the source                  April 2007         Address Canvassing
selection process.                                        April 2008                NRFU
                                                               *RCCs are the regional census centers; LCOs are the local
                                                               census offices. Source: Various Census documents
Industry has shown considerable interest in
FDCA, 7 and project officials have been
concerned that sufficient resources are not available to evaluate a large number of proposals.
Therefore, it is employing a strategy designed to limit the number of proposals while retaining
those that are the most promising. To accomplish this, the bureau will use what it refers to as the
“voluntary down select” process8 to advise potential offerors, based on their responses to a pre-
solicitation notice, as to whether they are viable competitors for the contract. The intent is to
    Table 2. FDCA Acquisition Strategy                             discourage those not considered
                                                                   viable from competing, although
            Dates                          Activities
                                                                   they are not disqualified from
    February 2005          Information exchange with industry      doing so. In the next phase of the
                                                                   acquisition, Census will release the
                           Issue pre-solicitation notice; evaluate
                                                                   FDCA solicitation. The source
                           offerors’ submissions and advise on
    April – May 2005                                               selection team will evaluate the
                           competitive viability; at the same time
                           issue draft solicitation                proposals that are received, and the
                           Issue solicitation, evaluate offerors’  contracting officer will then select
    June – August 2005     proposals and select the most highly    the most highly rated proposals.
                           rated ones                              These proposals are considered to
                           Remaining offerors build prototype
    September 2005 –       systems, participate in technical       be in the competitive range. At that
    January 2006           interchange meetings, offerors          point, the contracting officer has
                           develop final proposal                  the option of further reducing the
    February – April 2006
                           Evaluate final proposals and award      competitive range if there are more
                           contract                                proposals than Census staff can
  Source: FDCA Industry Symposium, February 23, 2005
                                                                   evaluate in the next phase of
                                                                   source selection. 9
6
  Although Census intends to have all FDCA capabilities ready for dress rehearsal, they will only have to be 

deployed to 3 local census offices.

7
  Ten potential prime contractors and about 35 subcontractors attended the February 28, 2005 FDCA industry 

symposium.

8
  Refer to Federal Acquisition Regulation 15.202 Advisory multi-step process, which allows an agency to advise 

offerors of their likelihood of being a viable competitor based on a statement of their capabilities prior to the 

solicitation being issued.

9
  Refer to Federal Acquisition Regulation 15.306(c)(2) Competitive range.



                                                          7

U.S. Department of Commerce                                               Final Inspection Report OSE-17368

Office of Inspector General                                                                     August 2005




Offerors in the competitive range will develop at their own expense a “near production ready”
prototype system for address canvassing, which will be evaluated as part of source selection.
During this development effort, technical interchange meetings will be held at which Census
personnel and offerors discuss various aspects of the prototypes, including system requirements.
However, these technical interchanges add complexity to the source selection process in several
ways. First, Census will need enough personnel who are well versed in FDCA system
requirements to answer offerors’ questions. Also, these personnel will have to be aware of and
abide by federal acquisition regulations requiring that they not favor one offeror over another or
reveal proprietary information during these interchanges. 10 FDCA officials have indicated that it
may be a challenge to obtain enough staff for the prototyping phase. Finally, Census will have to
make certain that any modifications to requirements resulting from these technical interchanges
are documented and provided to all offerors. The director of the acquisition division told us that
he plans to develop procedures and training material for conducting these interchanges.

FDCA officia ls believe there are several advantages to having multiple offerors develop a
prototype—a better chance of having a working system ready for address canvassing, better
information for identifying the most qualified contractor, and more accurate cost proposals from
offerors—compared to selecting one contractor and concentrating bureau resources on working
intensively with that contractor. However, the prototyping effort also extends the source
selection schedule by about 4 months and requires an increased le vel of technical interchange
between Census staff and offerors. This leaves less time after contract award to complete the
remainder of the work needed to prepare for and begin dress rehearsal, as well as less time to
communicate with the contractor without the constraints of source selection. In response to our
concern about the complexity of technical interchange, Census officials pointed out that they
have successfully conducted similar discussions on other large IT acquisitions in which offerors
were required to demonstrate selected system features (operational capability demonstrations)
during source selection. However, the technical interchanges required to build a “near production
ready” prototype are likely to be more complicated and, therefore, place a higher demand on
staff capabilities and management of source selection.

Recommendation

The Census Bureau Director should direct appropriate management officials to ensure that the
complexity in the source selection process is addressed by:
      a.	 developing specific procedures for how Census staff will communicate with offerors
          during prototype development;
      b.	 training staff in these communication procedures; and
      c.	 documenting and providing to all offerors any requirements modifications that result
          from technical interchanges during prototype development.




10
     Refer to Federal Acquisition Regulation 15.306(e) Limits on exchanges.


                                                          8

U.S. Department of Commerce                              Final Inspection Report OSE-17368
Office of Inspector General                                                    August 2005

Attachment

cc: Kathleen B. Cooper, Under Secretary for Economic Affairs
    Hermann Habermann, Deputy Director and Chief Operating Officer, U. S. Census Bureau
    Preston Jay Waite, Associate Director for Decennial Census, U. S. Census Bureau
    Marvin Raines, Associate Director for Field Operations, U. S. Census Bureau
    Richard Swartz, Associate Director for Information Technology, U. S. Census Bureau
    Arnold Jackson, Assistant Director for Decennial Census, U. S. Census Bureau
    Edwin B. Wagner, Jr., FDCA Project Manger, U. S. Census Bureau
    Mike Palensky, Chief, Acquisition Division, U. S. Census Bureau




                                            9

